September 29, 2000
Evaluation Report No. 00-005


MCI Voice and Video Contract –
Intrastate Surcharge and
Other Compliance Issues
Federal Deposit Insurance Corporation                                            Congressional Relations and Evaluations
Washington, D.C. 20434                                                                       Office of Inspector General



   DATE:                               September 29, 2000

   MEMORANDUM TO:                      Arleas Upton Kea
                                       Director, Division of Administration


   FROM:                               Stephen M. Beard
                                       Assistant Inspector General

   SUBJECT:                            MCI Voice and Video Contract—Intrastate Surcharge and Other
                                       Compliance Issues (EVAL-00-005)

   The Office of Congressional Relations and Evaluations has completed a review of FDIC’s Voice
   and Video Long Distance Services Contract (Contract) with MCI WorldCom, Inc. (MCI). The
   objective of our review was to determine whether MCI billed FDIC according to the terms of the
   Contract. In December 1999, we reported on MCI’s compliance with a Contract price warranty
   associated with the remaining 2 years of the Contract.1 This report addresses whether MCI
   properly billed FDIC for long distance voice services during the first 3 years of the Contract.

   Overall, we identified almost $1.26 million in charges that were not supported. We questioned
   $1.169 million of $1.2 million that MCI billed for a surcharge it applied to most of FDIC’s
   intrastate calls that was not included in the original Contract or in MCI’s tariff. We also
   identified $55,254 in unsupported directory assistance service costs and projected unsupported
   costs for that service of $18,345 for the remaining 21 months of the Contract. Further, we
   identified minor differences associated with calling card billings totaling $15,672. Otherwise,
   MCI generally charged FDIC appropriately for outbound and inbound long distance calls, audio
   conferencing calls, and fax broadcast calls.

   We also concluded that MCI did not comply with what we understood to be the intent of the
   Contract price warranty clause--to keep the Corporation's long distance rates competitive for the
   duration of the Contract. Had MCI matched rates available to other government agencies
   through Federal Technology Service (FTS) contracts, we estimate that FDIC’s long distance
   charges would have been $326,863 to $465,750 less during Contract option years one and two.
   Several factors limited FDIC’s ability to legally enforce the price warranty. Accordingly, we did
   not recommend that FDIC pursue recovery of those charges. However, we concluded that FDIC
   might have been able to obtain such pricing through option year negotiations. We plan to issue a
   separate report shortly on FDIC’s oversight of this Contract that will include recommendations
   to assist the Corporation in this regard for the future.

   The Acquisition and Corporate Services Branch (ACSB) discussed our preliminary findings with
   MCI in June 2000. In late August 2000, MCI proposed a two-part settlement valued at almost
   $1.7 million.


   1
       MCI Voice and Video Contract--Price Warranty, (EVAL-99-009), dated December 20, 1999.
We provided DOA a draft of this report on September 7, 2000. DOA provided a written
response to the draft report on September 26, 2000. Management agreed with both of our
recommendations. DOA’s written response is included in its entirety as Appendix III of this
report. Appendix IV presents our assessment of management’s response and shows that we have
a management decision for each recommendation.

DOA’s response indicated that ACSB expects to sign a settlement and release agreement with
MCI by October 31, 2000 with a total value approximating $1.68 to $1.78 million. Specifically,
MCI agreed to refund to FDIC $882,640 related to intrastate surcharges. MCI also agreed to
provide FTS2001 rates during the final year of MCI’s separate Wide Area Network (WAN)
contract with FDIC. ACSB estimated the revised WAN rates should result in savings of
$800,000 to $900,000.

DOA also indicated that ACSB would negotiate a revision to the Contract price schedule to
correct the directory assistance rate under the Voice and Video Contract. We estimated this
revision would reduce directory assistance charges by $18,345 over the remaining term of the
Contract.

Accordingly, we will report questioned costs of $882,640 and funds put to better use of $818,345
in our next Semiannual Report to the Congress. The funds put to better use represents $800,000
as a conservative estimate of savings on the new WAN rates plus $18,345 in cost reductions for
directory assistance.




                                               2
                                                 TABLE OF CONTENTS


INTRODUCTION......................................................................................................................... 4

BACKGROUND............................................................................................................................ 4

          Tariffs and the Filed Rate Doctrine................................................................................. 5

RESULTS IN BRIEF.................................................................................................................... 6

INTRASTATE SURCHARGE .................................................................................................... 7

          Surcharge Billed Since Contract Inception .................................................................... 7
          Initial Charges May Not Have Been Supported by Tariff ............................................ 7
          Surcharge Billed Inconsistently with Tariff ................................................................... 8
          Surcharge Not Billed in Compliance with the Terms of the Contract ......................... 9

DIRECTORY ASSISTANCE .................................................................................................... 10

PRICE WARRANTY CLAUSE ................................................................................................ 11

OTHER USAGE CHARGES..................................................................................................... 13

CONCLUSIONS AND RECOMMENDATIONS .................................................................... 13

CORPORATION COMMENTS AND OIG EVALUATION................................................. 14

APPENDIX I: GLOSSARY AND ACRONYMS ..................................................................... 15

APPENDIX II: INVOICE REVIEW METHODOLOGY AND SCOPE OF REVIEW ...... 17

APPENDIX III: CORPORATION COMMENTS................................................................... 20

APPENDIX IV: MANAGEMENT RESPONSE TO RECOMMENDATIONS ................... 22




                                                                   3
INTRODUCTION

This report presents the results of our review of FDIC’s Voice and Video Long Distance
Services Contract (Contract). The objective of our review was to determine whether MCI
WorldCom, Inc. (MCI) billed FDIC according to the terms of the Contract. In December 1999,
we reported on MCI’s compliance with a price warranty clause associated with the remaining
2 years of the Contract. This report addresses whether MCI properly billed FDIC for long
distance services during the first 39 months of the Contract.

The scope of our review included charges billed from Contract inception through February 2000.
To accomplish our objective we:

 •   Reviewed the Contract and modifications to understand terms, conditions and price
     structure.

 •   Interviewed Federal Communications Commission (FCC) representatives to understand
     tariff applicability.

 •   Reviewed the applicable tariff document to understand relevant terms and conditions.

 •   Interviewed representatives from the Acquisition and Corporate Services Branch (ACSB),
     Legal Division, and the Division of Information Resources Management (DIRM).

 •   Reconciled MCI invoice charges against the tariff, the Contract price schedule, and MCI
     electronic call detail records (CDR).

 •   Reviewed selected invoices over the term of the Contract. A more detailed discussion of
     our evaluation methodology is included as Appendix II.

We conducted our review from March 2000 through June 2000 in accordance with the
President's Council on Integrity and Efficiency's Quality Standards for Inspections.


BACKGROUND

FDIC awarded the Contract to MCI effective November 1, 1996 for a total amount of
$16.4 million over 5 years. Under the terms of the Contract, MCI provided nationwide voice and
video long distance services including: outbound, inbound (800), trunks, calling cards, video
teleconferencing, fax and dial-up data services. Program responsibility for the Contract rests
with DIRM’s Telecommunications Section. From Contract inception through January 2000,
MCI billed almost $9 million under the Contract. Figure 1 presents the composition of MCI
Contract charges through January 2000.




                                               4
         Figure 1: Composition of Contract Charges


                                  Trunks      Other
                  Calling Card      5%         4%
                       7%
                                                                                    800 Service
                                                                                       38%
             Intrastate
             Surcharge
                13%




                                            VNET
                                            33%

         Source: MCI Invoices




Tariffs and the Filed Rate Doctrine

Historically, common carriers, such as MCI, were required to file tariffs with state public utility
commissions or the FCC.2 Tariffs are public documents detailing the services, equipment and
pricing offered by the common carrier to all potential
customers. Non-dominant carriers, such as MCI, are required       Detariffing
to file tariffs no later than one day before the subject change   Following the Telecommunications Act of
goes into effect. The “filed-rate doctrine” is a                  1996, the FCC ordered detariffing for all
                                                                  interstate long distance carriers. A number
well-established legal principle that gives precedence to         of carriers, including MCI, challenged the
tariffs in common carrier relationships with customers. In        FCC decision in part on the basis that
short, when discrepancies exist between a tariff, contract, or    detariffing eliminated a favorable rule of
any other statement or promise made by the carrier, the tariff    common carrier law—the filed rate doctrine.
prevails.                                                         In February 1997, the United States Court of
                                                                                Appeals stayed the detariffing order pending
                                                                                judicial review. The Court recently upheld
The Contract was supported by MCI Telecommunications                            FCC’s decision and lifted the stay. In
Corporation Tariff FCC No. 7, Government                                        May 2000, the FCC implemented a 9-month
Telecommunications Services (Tariff No. 7), originally                          transition period requiring non-dominant
effective February 22, 1991. It appears that Option No. 388                     carriers to cancel their domestic, interstate
                                                                                tariffs by January 31, 2001.
of the Tariff provided for most of the domestic rates and
charges paid by FDIC under the Contract.




2
  Common carriers are telecommunications companies that offer services to the public. Local exchange carriers are
considered “dominant” carriers. Interexchange carriers, such as MCI, are considered “non-dominant.”

                                                          5
RESULTS IN BRIEF

From Contract inception, MCI applied an intrastate surcharge (surcharge) to most of FDIC’s
intrastate calls that was not included in the original Contract price schedule or in Tariff No. 7.
In early 1997, MCI informed FDIC that it was allowed, by tariff, to bill the surcharge. In
August 1997, MCI modified the Contract, and later the tariff, to include the surcharge. However,
we found inconsistencies between the tariff and the Contract regarding how the surcharge should
have been calculated. Until recently, common carriers were required to file tariffs in support of
contract prices. These tariffs consistently prevailed over contracts and other carrier promises
when discrepancies existed. MCI did not add the surcharge to its tariff until November 1997,
thus, we questioned 100 percent of the $281,131 charged before the November 21, 1997
effective date. In addition, we concluded that $887,979 of the $920,464 that MCI billed for the
surcharge after it was added to the tariff was calculated incorrectly and therefore not supported.

We also identified a discrepancy between Tariff No. 7 and the Contract price schedule for
directory assistance. We recalculated directory assistance charges using the tariff rate and
identified unsupported costs of $55,254 from Contract inception through January 2000. Further,
we projected unsupported costs of $18,345 for the remaining 21 months of the Contract.

In addition, we concluded that MCI did not comply with what we understood to be the intent of
the Contract price warranty clause--to keep the Corporation's long distance rates competitive for
the duration of the Contract. FDIC accepted MCI’s annual certification that it was offering
pricing consistent with the terms of the price warranty without determining MCI's basis for the
certification. Assuming the price warranty applied to Federal Technology Service (FTS)
contracts, we estimated that FDIC’s long distance charges should have been $326,863 to
$465,750 less during option years one and two. Several factors limited FDIC’s ability to pursue
FTS pricing through legal action. That being said, FDIC may have been able to obtain such
pricing through option year negotiations.

Otherwise, MCI generally charged FDIC appropriately for outbound and inbound long distance
calls, audio conferencing calls, and fax broadcast calls. We identified minor differences between
MCI invoices and supporting CDRs associated with calling card billings totaling $15,672.
Table 1 summarizes our findings discussed in the body of this report.


         Table 1: Summary Schedule of Evaluation Findings

         Finding Category       Contract     Questioned    Funds Put to     Total
                                Charges         Cost        Better Use
         Intrastate Surcharge   $1,201,596    $1,169,111                  $1,169,111
         Directory Assistance     $116,564      $55,254         $18,345     $73,599
         Calling Cards            $544,090      $15,672                     $15,672
         Total                  $1,862,250    $1,240,037        $18,345   $1,258,382




                                                6
INTRASTATE SURCHARGE

MCI billed a per-minute surcharge for most of FDIC’s intrastate calls. This surcharge was not
included in the original Contract price schedule. MCI informed FDIC in 1997 that its tariff
allowed MCI to bill the surcharge. However, it does not appear that MCI modified its tariff to
include the surcharge until more than a year after MCI began billing the charge. Moreover, we
identified inconsistencies between the Contract and Tariff No. 7 regarding how MCI should have
calculated the surcharge. We concluded that, of the $1.2 million that MCI billed for the
surcharge, almost $1.17 million was not supported by the tariff. We also identified surcharges
totaling $188,084 that were not supported by the tariff, Contract, or CDRs.


Surcharge Billed Since Contract Inception

Although the surcharge was not included in the original price schedule, MCI began billing the
surcharge at Contract inception. FDIC paid several invoices that included the surcharge before
rejecting invoices and questioning MCI about the charge. MCI stated that its tariff allowed MCI
to bill the surcharge and that the price schedule was not detailed enough to include all standard
MCI charges.3 Table 2 presents amounts that FDIC paid related to the intrastate surcharge.

In August 1997, FDIC and MCI modified the Contract to
                                                                      Table 2: Intrastate Surcharge Amounts
include the surcharge. MCI and FDIC signed a payment
agreement for intrastate surcharges billed, but not paid,              Calendar Year                  Amount
during 1997. During our initial review of the Contract,                1996 Payments                      $66,420
we noted that MCI was not billing the intrastate surcharge             1997 Payments                    $235,431
under the FTS2001 contract.4 Thus, we questioned                       1998 Payments                    $359,310
whether the surcharge was allowable under the terms of                 1999 Payments                    $494,288
                                                                       2000 Payments                      $46,147
the Contract price warranty. FDIC’s Contracting Officer
                                                                       Total Payments                  $1,201,596
requested that MCI discontinue the surcharge, to which                Source: MCI Invoices and file documents
MCI agreed effective February 2000. In total, FDIC paid
$1.2 million related to the intrastate surcharge.


Initial Charges May Not Have Been Supported by Tariff

We found no evidence to support MCI’s statement that the tariff allowed MCI to bill the
surcharge, or that the tariff supported the surcharge during the first year of the Contract. MCI
issued Option No. 388, effective November 21, 1997, which added the intrastate surcharge to
Tariff No. 7. Figure 2 presents a timeline of events related to the intrastate surcharge.



3
  MCI was also FDIC’s prior national long distance carrier. DIRM informed us that MCI did not charge FDIC the
intrastate surcharge under the prior long distance contract.
4
 MCI Voice and Video Contract--Price Warranty, (EVAL-99-009), dated December 20, 1999. MCI and Sprint were
vendors under FTS2001.

                                                       7
  Figure 2: Timeline of Events Related to the Intrastate Surcharge
                       5/28/97 -- Fax from MCI Contract Administrator to FDIC
                       stating "…we need to discuss how to proceed with previous                                               4/98 Final Payment
                       months invoicing. Apparently we need to have a settlement                                               Agreement signed by FDIC
                       process in place as we can not legally ammend [sic] our tariff        11/21/97 Surcharge                for historical intrastate
                       filed for you and make it retroactive."                               Effective date in Tariff #7.      surcharge.



                               FDIC made payments to MCI                                                     12/97 Draft Settlement
                                                                             8/97 - Mod 4 signed
                               totaling $89K for surcharge                                                   Agreement signed by
   11/96 -- MCI/FDIC                                                         instituting intrastate
                               (payments made 2/97, 3/97, 4/97,                                              MCI for historical
   Contract began.                                                           surcharge going
                               5/97 & 6/97).                                                                 intrastate surcharge.
                                                                             forward.




                             Jan-97                                      Jun-97                                       Jan-98
  Source: ACSB and DIRM contract files.




As shown, Option No. 388 was not effective until 11 months after MCI began charging the
surcharge and 3 months after MCI and FDIC modified the Contract to add the surcharge to the
price schedule. A FCC representative confirmed that the “Original Page” terminology
documented on Option No. 388 indicated that November 21, 1997 was the first time the option
was included in the tariff. We reviewed the tariff and found no other citations or options
resembling the intrastate surcharge.

47 CFR 61.23 required non-dominant carriers, such as MCI, to file tariffs no later than one day
before the effective date of the change. A FCC representative opined that MCI would have a
"hard time" collecting a charge that was not included in the tariff. During the intrastate
surcharge negotiations, MCI informed the Contracting Officer and oversight manager that the
tariff allowed MCI to bill the surcharge. We questioned whether MCI acted in good faith by
stating that the tariff “allowed” MCI to bill the intrastate surcharge. Accordingly, we questioned
100 percent of the $281,131 in intrastate charges billed prior to the November 21, 1997 effective
date of Option No. 388.


Surcharge Billed Inconsistently with Tariff

We reviewed Option No. 388 and identified inconsistencies between the tariff and the MCI
Contract regarding how the intrastate surcharge should have been calculated. Figure 3 presents a
comparison of the Contract and tariff.




                                                                            8
Figure 3: Comparison of Intrastate Surcharge Between the
MCI Contract and Tariff No. 7

      MCI/Contract Calculation of Intrastate Surcharge:
      If, on a monthly basis, intrastate calls accounted for 15%
      or more of total calls, MCI applied the following
      surcharge to the total of all intrastate minutes.
      •    800 Calls -- $.08 per minute
      • VNET Calls -- $.04 per minute               OIG/Tariff-Based Calculation of Intrastate
                                                    Surcharge:
                                                    If, on a monthly basis, intrastate minutes accounted for
                                                    15% of total minutes, the following surcharge should
                                                    have been applied to those calls exceeding the 15%
                                                    threshold.
                                                    •    800 Calls -- $.08 per call
                                                    • VNET Calls -- $.04 per call




We recalculated the intrastate surcharge based on
Tariff No. 7 and concluded that MCI overcharged
FDIC by $887,979 for the intrastate surcharge from                 Table 3: Summary Analysis of Intrastate
                                                                   Surcharge: December 1997 through January 2000
December 1997 through January 2000. Table 3
presents our summary analysis of the intrastate                                                   OIG Estimate
surcharge.                                                         Intrastate        MCI
                                                                                                   Per Tariff         Difference
                                                                   Surcharge        Charges
                                                                                                     No.7
The Contracting Officer asked MCI for the tariff                   800               $755,783             $ 31,911     $723,872
citation supporting the surcharge in early May 2000
and specifically discussed Option No. 388 with                     VNET              $164,680                  $573    $164,107
MCI in early June 2000. On July 14, 2000, MCI
                                                                   Total             $920,463             $ 32,484     $887,979
acknowledged to the Contracting Officer that it had
                                                                   Source: MCI Invoices and Tariff No.7
not charged FDIC for the surcharge in accordance
with Tariff No. 7. MCI indicated that it should
have charged FDIC the surcharge per call instead of
per minute.


Surcharge Not Billed in Compliance with the Terms of the Contract

Notwithstanding the tariff discrepancies discussed above, we also identified surcharge amounts
that were not supported by the Contract or CDRs. We recalculated the intrastate surcharge based
on the methodology in the Contract and concluded that over the first 3 years of the Contract,
MCI overcharged FDIC by $188,084.

Specifically, we recalculated the intrastate surcharge using MCI invoices and CDRs from
Contract inception through January 2000 for VNET and 800 service. MCI billed FDIC $19,633
in intrastate surcharges for October 1996 service, one month before the Contract began. In
addition, we were unable to find call detail support for 4.7 million minutes of usage for which


                                                          9
MCI billed $168,451 in intrastate surcharges. We concluded that FDIC should have been able
to recover the $188,084 regardless of its success in recovering charges not supported by the
tariff.


DIRECTORY ASSISTANCE

MCI also overcharged FDIC for directory assistance         Table 4: Directory Assistance Analysis
service under the Contract. We identified a
discrepancy between Tariff No. 7 and the Contract          Questioned Cost (Historical)
price schedule for directory assistance. We estimated      Period     MCI      Tariff-Based   Difference
                                                                    Charges    Calculation
that $55,254 of the $116,564 in directory assistance
                                                           1997      $39,428        $22,632      $16,796
charges that FDIC paid through January 2000 was            1998      $44,630        $22,755      $21,875
unsupported by the tariff. We projected that FDIC          1999      $30,553        $14,973      $15,580
would pay an additional $18,345 in unsupported             1/00       $1,953           $950       $1,003
directory assistance charges over the remaining term       Total    $116,564        $61,310      $55,254
of the Contract if MCI continued to bill FDIC the
Contract rate instead of the Tariff No. 7 rate, as shown   Funds Put to Better Use (Projected)
in Table 4.                                                Period     MCI      Tariff-Based   Difference
                                                                    Charges    Calculation
                                                            2000     $24,582        $14,973       $9,609
MCI billed directory assistance on a per call basis.         2001    $22,347        $13,611    $8,736
VNET and calling card directory assistance averaged         Total    $46,929        $28,584   $18,345
$1.25 and $1.27 per call, respectively, through January Source: MCI Invoices
2000. The original Contract price schedule did not
include a line item amount for directory assistance. Modification No. 4, dated August 7, 1997,
added a directory assistance per call usage charge of $1.10 to the Contract price schedule.

However, MCI’s Tariff No. 7 required MCI to bill a lower per-minute rate. At the beginning of
the Voice Contract, MCI’s tariff rate for directory assistance was $.64 per call. In 1998, MCI
amended Tariff No. 7 and increased the tariff rate to $.67 per call. Based on our calculation of
directory assistance using the tariff rate, we identified unsupported costs of $55,254 through
January 2000 of the Contract.

As of the date of this report, MCI was still charging FDIC the incorrect rate. Accordingly, we
projected that FDIC would lower its costs by $18,345 for the remaining 21 months of the
Contract if MCI corrected the rate charged for directory assistance.




                                                10
PRICE WARRANTY CLAUSE

MCI did not comply with what we understood to be the intent of the Contract price warranty
clause--to keep FDIC's long distance rates competitive for the duration of the Contract. The
clause required MCI to adjust pricing each year to match pricing offered to other MCI customers,
or otherwise available under FTS contracts. FDIC relied on MCI’s self-certification that it was
offering pricing consistent with the terms of the price warranty. We found that FTS2000 rates
were lower than MCI rates charged to FDIC during option years one and two of the Contract.
Had MCI matched pricing available under FTS contracts, we estimated that FDIC’s long
distance charges would have been about $326,863 to $465,750 less during option years one and
two. Several factors limited FDIC’s ability to legally enforce the price warranty clause.
However, we concluded that FDIC might have been able to obtain such pricing through option
year negotiations.

During the original solicitation for the Contract, MCI was effectively the only offeror. AT&T
declined to bid on the solicitation and requested that FDIC procure telecommunication services
from the FTS2000 contract. AT&T and Sprint were vendors under the FTS2000 program.

The Acquisition Services Branch (ASB) conducted a price comparison between MCI’s proposal
and AT&T prices available under the FTS2000 contract.3 ASB concluded the MCI Contract
would be substantially less expensive than FTS2000. However, ASB recognized that FTS2000
included several price control mechanisms that could erode MCI’s cost advantage over the
5-year term of the Contract. Accordingly, ASB recommended, in an internal memorandum, that
MCI and FTS2000 prices be compared annually prior to Contract renewal to ensure that FDIC
continued to receive competitive rates for long distance service.

To accomplish this price confirmation, ASB                         Price Warranty Clause
included a price warranty clause in the MCI                        Section C, Article VII, of the Contract:
Contract that required MCI to adjust Contract
pricing each option year to match pricing offered to               “...Contractor warrants that the prices offered for
other MCI customers or otherwise available under                   the goods and services to be provided under this
                                                                   Contract are no higher than any price charged to
General Services Administration (GSA) contracts.                   any other customer, including any governmental
However, during the best and final offer stage of                  instrumentality, purchasing the same or
the solicitation, MCI added language limiting the                  substantially similar goods and services in like or
clause to sales by MCI Government Markets.                         similar quantities under similar conditions or
                                                                   otherwise available under a General Services
                                                                   Administration (GSA) schedule or contract…
DOA did not perform a market analysis before
exercising option years one and two of the MCI        “For this Article VII only, the Contractor’s
Contract as recommended during the original           warranty is limited to sales by MCI Government
solicitation. Instead, DOA relied on MCI's self-      Markets, its successor(s), or assignee(s).”
certification at the outset of each option year that
its pricing complied with the terms of the price
schedule without determining the basis for the
certification. MCI’s pricing remained largely unchanged over the first 3 years of the Contract.
However, average FTS rates experienced a cumulative decrease of about 30 percent during the
3
    Prior to March 1999, ACSB functions and staff were divided between ASB and the Corporate Services Branch.

                                                         11
same 3-year period. Figure 4 compares
average rates for long distance voice                Figure 4: Analysis of Average Per-Minute Rates
service between the MCI Contract and FTS
contracts.
                                                     Under FTS and the MCI Contract
                                                                  0.08

We spoke with an AT&T account manager
                                                                  0.06
who provided average FTS2000 per minute




                                                       Dol lars
pricing during 1997 and 1998—when
                                                                  0.04
option years one and two of the MCI
Contract were exercised. Under FTS2000,
                                                                  0.02
pricing varied based on the originating and
terminating local access and transport area
                                                                    0
(LATA) of each call and monthly call                                     1996   1997   1998      1999    2000
volume levels. The account manager                                                                              FTS
                                                                                   Fiscal Year
provided a per-minute average range for                                                                         M CI
FTS2000 pricing. Table 5 compares MCI
pricing to FTS2000 average pricing.

Using FTS2000 historical pricing and FDIC’s actual monthly call volume levels, we concluded
that FDIC could have saved between $326,863 to $465,750 during option years one and two had
MCI offered current market pricing as intended by the price warranty clause.

We did not report these amounts as questioned costs for several reasons. First, MCI added
limiting language to the price warranty section of the Contract during the best and final offer
phase. FDIC’s Legal Division opined that this language effectively limited price warranty
comparisons to contracts awarded by MCI’s Government Markets. MCI was not a vendor under
FTS2000.
                                                       Table 5: Comparison of Average Per-Minute
Second, the pricing structures between FTS2000         Pricing
and the MCI Voice and Video Contract were
disparate. AT&T’s price structure was based on                                                 MCI               FTS2000
                                                           Access Category                    Contract            AT&T
the originating and terminating LATA and
monthly call volumes, while MCI’s price was a              Dedicated to Dedicated               $.04             $.03-.04
flat, per-minute rate nationwide. The Legal                Dedicated to Switched               $.065                   $.06
Division advised that pricing structures needed to         Switched to Switched                  $.10             $.07-.08
be largely similar to make price warranty               Source: Discussion with AT&T Representative, MCI Contract
comparisons.

Third, the price warranty clause was not addressed in Tariff No. 7. The Legal Division informed
us the filed-rate doctrine would likely prevail and override the Contract price warranty clause.

Nevertheless, from a price competition standpoint, we concluded FDIC could have possibly
achieved more competitive rates by testing the market each year prior to exercising the Contract
option. While the Corporation may not have legally been able to force a price reduction via the
price warranty clause, FDIC could have pursued option year negotiations with MCI based on
current market pricing and FDIC’s client leverage. Indeed, MCI’s rationale for ultimately


                                               12
providing FTS2001 pricing was not because MCI agreed with FDIC’s interpretation of the price
warranty. Instead, MCI reported that it was providing FDIC FTS2001 pricing because FDIC was
a “valued customer.” We plan to issue a separate report shortly on FDIC’s oversight of this
Contract that will include recommendations to assist the Corporation in this regard for the future.


OTHER USAGE CHARGES

We also recalculated MCI charges from selected invoices for VNET, 800, audio conferencing
and teleconferencing. We concluded that MCI generally billed FDIC properly for those services.

In addition, we reviewed all of the invoices for calling card service and found minor
inconsistencies between the Contract price schedule and amounts charged for calling card calls.
Based on our review of invoices, we calculated $15,672 in unsupported costs from Contract
inception through January 2000.


CONCLUSIONS AND RECOMMENDATIONS

MCI applied an intrastate surcharge that was not included in the original Contract or
corresponding tariff. MCI indicated this surcharge was required under the tariff, then later
modified the Contract and tariff to include the surcharge. Further, MCI calculated the surcharge
incorrectly. We determined that over 97 percent of the $1.2 million that MCI billed for the
surcharge was not supported by the tariff.

MCI also charged a rate for directory assistance that was inconsistent with the tariff. We
identified unsupported costs of $55,254 and projected unsupported costs of $18,345 over the
remainder of the Contract associated with directory assistance.

Moreover, MCI did not comply with what we understood to be the intent of the Contract price
warranty clause. FDIC relied on MCI’s annual certification of compliance. We estimated
FDIC’s long distance charges would have been $326,863 to $465,750 less had MCI matched
FTS pricing. Several factors impacted FDIC’s ability to legally enforce the price warranty as it
pertained to entities other than MCI. However, we concluded that the Corporation might have
been able to obtain more competitive pricing through Contract option year negotiations.

MCI generally charged FDIC appropriately for other usage services that we reviewed with the
exception of calling card service for which we identified minor unsupported charges totaling
$15,672.




                                                13
We recommended the Director, DOA:

1. Coordinate with the Legal Division to review Tariff No. 7, the Contract, and the results of
   our analysis, and:

   a. Recover $1,169,110 in intrastate surcharges that were not supported by Tariff No. 7,
      Option No. 388.

   b. In the event that FDIC determined that recovery of the tariff-based overcharges was not
      possible, recover $188,084 in intrastate surcharges that were not supported by the
      Contract.

   c. Recover $55,254 in directory assistance charges that were not supported by Tariff No. 7.

   d. Recover $15,672 in calling card charges that were not supported by the Contract.

2. Work with MCI to revise the Contract price schedule to reflect the tariff-based directory
   assistance rate.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DOA, provided the Corporation’s written response to a draft of this report on
September 26, 2000. The response is presented as Appendix III to this report. DOA agreed
with, and provided the requisites of a management decision for, both of our recommendations.

DOA’s response indicated that ACSB was in the final stages of negotiating a settlement with
MCI that should result in refunds and savings exceeding those discussed in our report.
Specifically, MCI agreed to refund to FDIC $882,640 related specifically to intrastate
surcharges. MCI also agreed to provide FTS2001 rates to FDIC during the final year of the
WAN contract which ACSB estimates should result in savings of $800,000 to $900,000.

DOA also indicated that ACSB would negotiate a revision to the Contract price schedule to
correct the directory assistance rate. We estimated that revising the directory assistance rate
would reduce costs by $18,345 over the remaining term of the Contract.

Accordingly, we will report questioned costs of $882,640 and funds put to better use of $818,345
in our next Semiannual Report to the Congress. The funds put to better use represents $800,000
as a conservative estimate of savings on the new WAN rates plus $18,345 in cost reductions for
directory assistance.




                                                14
APPENDIX I: GLOSSARY AND ACRONYMS

Term                  Definition
ACSB                  Acquisition and Corporate Services Branch. Division of Administration branch with
                      contract authority for the MCI Contract. In March 1999, functions and staff from the
                      Acquisition Services Branch and Corporate Services Branch were combined to form ACSB.

Calling Card          Essentially a credit card used to bill long distance calls. Calling card calls originate from
                      non-FDIC facilities and terminate at locations not serviced by a FDIC 800 number.

CDR                   Call Detail Record. An accounting record, produced by telephone switches, that tracks call
                      type, time, duration, facilities used, originator, destination, and so forth. CDRs are used for
                      customer billing, rate determination, network monitoring, and facility capacity planning.

Common carrier        Telecommunications companies that offer services to the public. Local exchange carriers
                      (LECs), such as Verizon, are considered “dominant” carriers. Interexchange carriers, such
                      as MCI, are considered “non-dominant.”

DA                    Directory Assistance. An information service in which operators assist customers in
                      obtaining telephone numbers. Under the Contract, DA charges appeared on VNET and
                      calling card invoices.

DIRM                  Division of Information Resources Management. Program office for the Contract.
                      Specifically, the Telecommunications Section within DIRM had program responsibility for
                      the MCI Contract.

DOA                   Division of Administration. FDIC division providing human resource, organizational,
                      procurement, and administrative support services to the Corporation.

FCC                   Federal Communications Commission. The U.S. Government board of five presidential
                      appointees vested with the authority to regulate all non-Federal Government interstate
                      telecommunications as well as all international communications that originate or terminate
                      in the United States.

Filed-rate doctrine   Well-established legal principle that gave precedence to tariffs in common carrier
                      relationships with customers.

FTS                   Federal Technology Service. An organization within the General Services Administration
                      that provided information technology and network services solutions to government
                      agencies. FTS provided long distance telecommunications service to agencies via the FTS
                      contracts. FTS2000 was awarded to AT&T and Sprint in 1988. In late 1998 and early 1999,
                      FTS awarded the FTS2001 contract to Sprint and MCI, respectively.

IEC                   Interexchange Carrier. A company providing long distance telephone service between LECs
                      and local access and transport areas (LATAs).

Inbound               800 Toll Free calls. Calls for which the party being called, in this case FDIC, were billed.
                      Under the MCI Contract, inbound calls were known as 800 service.

Interlata             Telecommunications services originating in one LATA and terminating in another LATA or
                      outside of a LATA.

Interstate            Any telecommunications channel, facility, or network that provides transmission between
                      locations in two or more states. Interstate operation is regulated by the FCC.


                                                   15
Term           Definition
Intralata      Telecommunications services originating and terminating within the same LATA.

Intrastate     Telecommunications services originating and terminating within the same state. Intrastate
               connections are regulated by each state's public utility commission.

LATA           Local Access and Transport Area. A geographic service area defined in the AT&T
               Modification of Final Judgement (MFJ). Long-distance service within a LATA is provided
               by the LEC. Service between LATAs is provided by an IEC. There are approximately 200
               LATAs in the U.S.

LEC            Local Exchange Carrier. A local telephone company that provides ordinary local
               voice-grade telecommunications service under regulation within a specified service area.

MCI            The FDIC Voice and Video Long Distance Services Contract, effective November 1, 1996,
               was signed by MCI Telecommunications Corp. (MCIT), a subsidiary of MCI
               Communications Corporation (MCIC).

               In September 1998, WorldCom, Inc. acquired MCIC and was renamed MCI WorldCom,
               Inc. In October 1999, MCIT was renamed MCI WorldCom Network Services, Inc.

               MCI’s organization pertaining to the Contract was:
               • MCI WorldCom, Inc. -- parent company,
               • MCI WorldCom Network Services, Inc. -- wholly owned subsidiary.

Outbound       Outgoing calls. Calls originating from or between FDIC facilities. Under the MCI
               Contract, outbound service was known as VNET service.

Switch         A device that can be controlled to interconnect two circuits that responds to originator
               signals and dynamically accepts, routes, and places or forwards a call or other transmission;
               includes LEC central office switches, IEC switches and private branch exchange.

Tariff         Published schedule of rates or charges for a specific unit of equipment, facility, or type of
               service provided by a telecommunications common carrier.

Tariff No. 7   Government Telecommunications Services tariff document filed with the FCC originally
               effective February 22, 1991, containing rules, regulations and rates applicable to service
               provided by MCI WorldCom Network Services, Inc. It was the governing document for
               FDIC’s Voice and Video Long Distance Services Contract.

Trunk          A high-capacity connection between switches. From a customer perspective, trunk may refer
               to an external carrier line connected to customer premises equipment/private branch
               exchange (CPE/PBX), including local exchange lines, wide area telecommunications service
               (WATS) lines and dedicated private lines. Customer trunks may be outgoing only, incoming
               only, or two-way. Trunks perform various control functions associated with call processing.

Usage          For the purposes of this report, usage referred to the volume of traffic for specific services.
               Most charges under the Contract varied with the level of usage. For example, VNET and
               800 calls were priced according to the number of long distance minutes. Calling card
               surcharges and directory assistance were priced according to the number of calls. Some
               charges, such as monthly recurring charges for trunk lines were fixed and were not affected
               by volume or usage.




                                            16
APPENDIX II: INVOICE REVIEW METHODOLOGY AND
SCOPE OF REVIEW

MCI billed FDIC monthly for Contract services. In some instances, MCI provided CD-ROM-
based invoices and electronic CDRs for selected service categories. Billings consisted of seven
invoices for the following service types as shown in Table 6.

       Table 6: Contract Invoices and Service Categories
                                                               Call Detail Support
        Service Category
                                                           Paper-Based       Electronic
        Intrastate Surcharge                                   No               No
        VNET                                                   Yes              Yes
        800                                                    Yes              Yes
        Calling Cards                                          Yes              No
        Frame Relay (Trunk Lines)                             N/A               N/A
        Bill #6 (Audio Conferencing,                           Yes              No
        Fax Broadcast)
        Video Teleconferencing                                 Yes              No


We analyzed charges for each service type and concentrated our work on those that represented
the bulk of the Contract charges. We initially reviewed charges quarterly for each service
category to determine if charges were supportable. In instances where we identified
discrepancies, we expanded our coverage to review all charges.

When possible, we used Interactive Data Extraction and Analysis (IDEA) audit software to
recalculate Contract charges from the electronic CDRs. We were unable to read electronic
CDRs prior to November 1998 for 800 service, and May 1998 for VNET service, using IDEA
and Microsoft Access.

We also reviewed hardcopy invoices for selected services. In a few cases, invoices were either
missing, incomplete, or not available at the time of our review. Table 7 itemizes, by month, the
scope of our analysis and the information that we reviewed.

DIRM also maintained an invoice log with summary minute and charge information for each
service category. Where noted in Table 7, we used summary information from the invoice log to
assess the reasonableness of service charges.

For most of our calculations, we determined per minute or per call usage information from the
electronic CDR or from summary invoice pages. We then researched the Contract price
schedule or appropriate tariff document to determine the correct price for the service and how the
service should have been billed. We recalculated Contract amounts and compared our results to
MCI invoice amounts.

We did not review, or performed a limited review, of the following:




                                               17
•     Frame Relay invoices because we found that the Oversight Managers monitored trunk line
      charges fairly closely. Frame Relay accounted for about 5 percent of the total Contract
      charges through January 2000,

•     Audio Conferencing and Fax Broadcast (Fax B.C.) because those services accounted for less
      than 2 percent of total Contract charges, and

•     International calls, which represented less than 1 percent of total Contract charges, because
      pricing was disparate and dependent on the terminating location of each call.

Table 7 presents the periods and sources of Contract billing information that we reviewed.

Table 7: Scope of Contract Review
             Intrastate Surcharge   Directory Assistance               Contract Compliance
    Usage       800        VNET        VNET       Calling        800    VNET      Calling    Audio      Fax        Video
    Month                                         Cards                            Cards     Conf.      B.C.     TeleConf.

    Nov-96   Invoice     Invoice     Missing      Missing                         Missing      (X)               Summary
                                                                                                                  Invoice
    Dec-96   Invoice     Invoice     Missing      Missing                         Missing                        Summary
                                                                                                                  Invoice
    Jan-97   Invoice     Invoice     Missing      Missing                         Missing

    Feb-97   Invoice     Invoice      Invoice     Invoice                         Invoice                        Summary
                                                                                                                  Invoice
    Mar-97   Invoice     Invoice     Missing      Missing    Invoice    Invoice   Missing    Invoice   Invoice    Invoice

    Apr-97   Invoice     Invoice      Invoice     Invoice                         Invoice                        Summary
                                                                                                                  Invoice
    May-97   Invoice     Invoice      Invoice     Invoice                         Invoice                        Summary
                                                                                                                  Invoice
    Jun-97   Invoice     Invoice      Invoice     Invoice    Invoice    Invoice   Invoice    Invoice   Invoice      (X)

    Jul-97   Invoice     Invoice      Invoice     Invoice                         Invoice                           (X)

    Aug-97   Invoice     Invoice      Invoice     Invoice                         Invoice                (X)        (X)

    Sep-97   Invoice     Invoice      Invoice     Invoice    Invoice    Invoice   Invoice    Invoice   Invoice      (X)

    Oct-97   Invoice     Invoice      Invoice     Invoice                         Invoice                (X)        (X)

    Nov-97   Invoice     Invoice      Invoice     Invoice                         Invoice                           (X)

    Dec-97   Invoice     Invoice      Invoice     Invoice    Invoice    Invoice   Invoice    Invoice   Invoice      (X)

    Jan-98   Invoice     Invoice      Invoice     Invoice                         Invoice

    Feb-98   Invoice     Invoice      Invoice     Invoice                         Invoice                           (X)

    Mar-98   Invoice     Invoice      Invoice     Invoice    Invoice    Invoice   Invoice    Invoice   Invoice      (X)

    Apr-98   Invoice     Invoice      Invoice     Invoice                         Invoice                           (X)

    May-98   Invoice   CD-ROM &     CD-ROM &      Invoice                         Invoice                           (X)
                        Invoice      Invoice




                                                            18
         Intrastate Surcharge      Directory Assistance                   Contract Compliance
Usage       800        VNET           VNET       Calling         800       VNET      Calling    Audio      Fax        Video
Month                                            Cards                                Cards     Conf.      B.C.     TeleConf.

Jun-98    Invoice    CD-ROM &      CD-ROM &       Invoice     Invoice    CD-ROM &     Invoice   Missing   Missing      (X)
                      Invoice       Invoice                               Invoice
Jul-98    Invoice    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
                      Invoice       Invoice
Aug-98    Invoice    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
                      Invoice       Invoice
Sep-98    Invoice    CD-ROM &      CD-ROM &       Invoice     Invoice    CD-ROM &     Invoice   Missing     (X)        (X)
                      Invoice       Invoice                               Invoice
Oct-98    Invoice    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
                      Invoice       Invoice
Nov-98    Invoice    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
                      Invoice       Invoice
Dec-98   CD-ROM &    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
          Invoice     Invoice       Invoice
Jan-99   CD-ROM &    CD-ROM &      CD-ROM &       Invoice     Invoice    CD-ROM &     Invoice   Missing   Missing      (X)
          Invoice     Invoice       Invoice                               Invoice
Feb-99   CD-ROM &    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
          Invoice     Invoice       Invoice
Mar-99   CD-ROM &    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
          Invoice     Invoice       Invoice
Apr-99   CD-ROM &    CD-ROM &      CD-ROM &       Invoice     Invoice       Invoice   Invoice                          (X)
          Invoice     Invoice       Invoice
May-99   CD-ROM &    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
          Invoice     Invoice       Invoice
Jun-99   CD-ROM &    CD-ROM &      CD-ROM &       Invoice                             Invoice                          (X)
          Invoice     Invoice       Invoice
Jul-99   CD-ROM &    CD-ROM &      CD-ROM &       Invoice     Invoice       Invoice   Invoice                          (X)
          Invoice     Invoice       Invoice
Aug-99   CD-ROM &      Missing       Missing      Missing                             Missing                          (X)
          Invoice
Sep-99   CD-ROM & CD-ROM &         CD-ROM &       Invoice                             Invoice                          (X)
          Invoice  Invoice          Invoice
Oct-99   CD-ROM & CD-ROM &         CD-ROM &       Invoice     Invoice       Invoice   Invoice   Invoice                (X)
          Invoice  Invoice          Invoice
Nov-99   CD-ROM & CD-ROM &         CD-ROM &       Invoice                             Invoice   Invoice                (X)
          Invoice  Invoice          Invoice
Dec-99   CD-ROM & CD-ROM &         CD-ROM &       Invoice                             Invoice   Invoice                (X)
          Invoice  Invoice          Invoice
Jan-00   CD-ROM & CD-ROM &         CD-ROM &       Invoice                             Invoice   Invoice                (X)
          Invoice  Invoice          Invoice




     Legend
     Invoice -- Reviewed charges using paper invoice and contract price schedule.
     CD-ROM -- Electronically recalculated from electronic CDR and price schedule
     information.
     Summary Invoice -- Assessed reasonableness of charge using summary minute
     and summary charges information from DIRM invoice log.
     Missing -- Unable to locate invoice at time of review.
     (X) -- DIRM invoice database indicated no charges were incurred or no invoices
     were received for the period.




                                                            19
APPENDIX III: CORPORATION COMMENTS




                              20
21
APPENDIX IV: MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of management
decisions. The information for management decisions is based on DOA management's written response to our draft report.

                                                                                    Expected or    Documentation                   Management
 Rec.                                                                                 Actual          that will     Monetary        Decision:
 Number     Corrective Action: Taken or Planned / Status                            Completion     Confirm Final    Benefits        Yes or No
                                                                                       Date            Action

     1      ACSB is in the final stages of negotiations with MCI. MCI has            10/31/00     Settlement and   $1,682,640 to      Yes
            agreed to:                                                                            Release           $1,782,640
                                                                                                  Agreement
            •   Refund FDIC $882,640 related specifically to intrastate
                surcharges. Refund will be recorded in the form of credits
                under MCI’s Wide Area Network (WAN) contract with
                FDIC.

            •   Provide FDIC with FTS2001 pricing during the final option
                year of the WAN contract. ACSB estimates that FTS2001
                pricing will result in cost savings of $800,000 to $900,000.




    2       ACSB will negotiate a revision to the price schedule during the          11/30/00     Contract           $18,345          Yes
            upcoming option year decision period to correct the tariff-based                      Modification
            directory assistance rate.




                                                                               22
